vppiAinlX

y

Z

/

Michael K. Jeanes, Cleric of Court
*** Filed ***

SJ \ I n ©CO

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY

04/25/2017

CR2015-104264-001 DT

CLERK OF THE COURT
A. Chee
Deputy

HONORABLE ALFRED M. FENZEL

LISA MARIE MARTIN

STATE OF ARIZONA
v.

WILLIAM L DAVIS
#305652 ASPC, EYMAN COOK
P O BOX 3200
FLORENCE AZ 85132

WILLIAM L DAVIS (001)

COURT ADMIN-CRIMINAL-PCR

POST-CONVICTION RELIEF DENIED
The Court has considered Defendant’s Petition for Post-Conviction Relief, the State’s
Response to Petition for Post-Conviction Relief, as well as the “Petitioner’s Reply Brief for PostConviction Relief’.
The Defendant claims in his Petition that:
1. Defense Counsel’s Decision to Limit Mental Health Investigation and Failing to Seek
Psychological Evaluation when there was Substantial Evidence to Doubt Defendant’s
' Competency is Ineffective Assistance.
2. Defense Counselor’s Failure to Advise Defendant of Possible Defense Based on
Mental Disease or Defect and Failing to Investigate Defendant’s Mental State at the
Time of the Offense is Ineffective Assistance.
In order to prove a claim of ineffective of counsel a defendant must show that counsel’s
performance was both unreasonable under the circumstances and that but for counsel’s
performance the result of the proceedings would have been different. Stickland v. Washington,
466 U.S. 671 (1984); State v. Mata, 185 Ariz. 319 (1996)
Docket Code 167

Form R000A

.App- A

Page 1

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
04/25/2017

CR2015-104264-001 DT

The gravamen of the Defendant’s petition is that he suffers from PTSD and other mental
health issues and, therefore, was not competent to enter a plea in this matter. The Defendant’s
claim is belied by the record.
Presence of mental illness does not mean that a Defendant is incompetent to plead guilty.
The issue regarding competency is whether or not the Defendant was able to understand the
nature of the charges he faced and to assist his council in his defense. State v. Moudy, 208 Ariz.
424 (2004).
On October 2,2015 Judge Coury participated in a Settlement Conference in this matter.
Following the Settlement Conference the Defendant entered pleas of guilty to three counts of
Sexual Conduct with a Minor.
The Court has had the opportunity to review the transcript of the Settlement Conference
and the Defendant’s Change of Plea colloquy with the Court. The Defendant was clearly
competent.
During the Settlement Conference the Defendant responded to questions and spoke about
his lengthy service in the Marine Corps, his various military deployments (pages 7 & 8) as well
as the length of time he would serve in prison (page 15).
During the plea colloquy the Defendant responded appropriately to questions he was
asked.
The Court found that his plea was knowingly, intelligently, and voluntarily made.
With respect to the Defendant’s mental state the following exchange took place with the
Court:
Page 19, Lines 4-18:
“Q: Have you taken any drugs or alcohol or medicines in the past 24 hours?
A: I’m sick, Judge, so I take a lot of medication. I don’t know -1 don’t think anything
affect my judgment.
Q: All right. Are you understanding me here today?
A: Yes, I do, Judge.
Docket Code 167

Form R000A

App A

Page 2

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
04/25/2017

CR2015-104264-001 DT

Q: Okay. You think you’re able to make a good decision about how to proceed here
today, is that right?
A: Yes, I do.
Q: Okay. And nothing about your medications make you not able to understand what
you’re doing?
A: None.
Q: Okay. Nothing about your medications are making you made a bad decision, correct?
A: Yes.”
The Court notes that a Defendant waives non-jurisdictional defenses when a plea is
entered. An insanity defense and a claim of ineffective assistance of counsel that is unrelated to
the validity of a plea are non-jurisdictional.
Based on the record before the Court, the Defendant has failed to show that his counsel
acted unreasonably or that the outcome of the proceedings would have been different. As such he
has failed to raise a colorable claim for Post-Conviction Relief.
IT IS ORDERED denying the Defendant’s Petition for Post-Conviction Relief.
IT IS FURTHER ORDERED dismissing Defendant’s Petition for Post-Conviction Relief.

JUDICIAL OFFICER OF THE SUPERIOR COURT

Form RO00A

Docket Code 167

AppA

Page 3

frj A • X

&- 3,5

NOTICE: NOT FOR OFFICIAL PUBLICATION.
UNDER ARIZONA RULE OF THE SUPREME COURT 111(c), THIS DECISION IS NOT PRECEDENTIAL
AND MAY BE CITED ONLY AS AUTHORIZED BY RULE.

IN THE

Arizona Court of Appeals
Division One
STATE OF ARIZONA, Respondent,
v.
WILLIAM L. DAVIS, Petitioner.
No. 1 CA-CR 17-0382 PRPC
FILED 1-25-2018
Petition for Review from the Superior Court in Maricopa County
No. CR2015-104264-001
The Honorable Alfred M. Fenzel, Judge (retired)
REVIEW GRANTED; RELIEF DENIED
COUNSEL
Maricopa County Attorney's Office, Phoenix
By Lisa Marie Martin
Counsel for Respondent
William L. Davis, Florence
Petitioner

app

e>

STATE v. DAVIS
Decision of the Court

MEMORANDUM DECISION
Judge Paid J. McMurdie delivered the decision of the Court, in which
Presiding Judge Lawrence F. Winthrop and Judge Jennifer B. Campbell
joined.

McMURDIE, Judge:
William L- Davis petitions this court for review from the
dismissal of his petition for post-conviction relief of-right ("PCR") filed
pursuant to Arizona Ride of Criminal Procedure ("Rule") 32.1. We have
considered the petition for review and, for the reasons stated, grant review
but deny relief.

HI

In 2015, Davis pled gudty to one count of sexual conduct with
a minor under the age of 15 (Count 1) and two counts of attempted sexual
conduct with a minor under the age of 15 (Counts 2 and 3). As set forth in
the plea agreement, Davis stipulated to an aggravated term of 27 years'
imprisonment on Count 1 (based on stipulated aggravating factors of harm
to the victim, young age of victim, abuse of trust, and need to deter future
conduct), followed by concurrent terms of lifetime probation on Counts 2
and 3.

12

After the superior court sentenced him in accordance with the
terms of the plea agreement, Davis timely commenced PCR proceedings.
Counsel was appointed to represent Davis. After reviewing the record,
Counsel notified the court he had found no colorable claims for relief. See
Montgomery v. Sheldon, 181 Ariz. 256, 260 (Montgomery I); op sup., 182 Ariz.
118,119 (Montgomery 11) (1995). Davis then filed a pro se PCR arguing that
trial counsel was ineffective when he failed to: (1) request a psychological
evaluation or otherwise investigate Davis's mental health, and (2) advise
Davis that he could raise a defense to the charges based on mental disease
or defect. The superior court summarily dismissed the PCR, and this
petition for review followed.

13

Absent an abuse of discretion or error of law, this court will
14
not disturb a superior court's ruling on a petition for post-conviction relief.
State v. Gutierrez, 229 Ariz. 573,577, f 19 (2012). It is the petitioner's burden
to show that the superior court abused its discretion. See State v. Poblete, 227

JW TB

2

STATE v. DAVIS
Decision of the Court
Ariz. 537, 538, f 1 (App. 2011) (petitioner has burden of establishing abuse
of discretion on review).
On review, Davis reasserts his ineffective assistance of
15
counsel claims, but also argues, for the first time, that the superior court
induced his guilty plea by initiating "a train of thought" and suggesting
that the best "course of action" for Davis was to plead guilty. Because a
petition for review may not raise an issue not first presented to the superior
court, we do not address Davis's inducement claim. See Ariz. R. Crim. P.
32.9{c)(4)(B)(ii); see also State v. Bortz, 169 Ariz. 575,577 (App. 1991).
Turning to the remaining issues, Davis fails to raise a
colorable claim. "By entering a guilty plea, a defendant waives all nonjurisdictional defects and defenses, including claims of ineffective
assistance of counsel, except those that relate to the validity of a plea." State
v. Leyva, 241 Ariz. 521, 527, U 18 (App. 2017) (quoting State v. Banda, 232
Ariz. 582, 585, f 12 (App. 2013)). Accordingly, on review, the only relevant
inquiry regarding Davis's mental capacity is whether he knowingly,
intelligently, and voluntarily entered the plea.

116

Although a "defendant is not competent to plead guilty if
17
mental illness has substantially impaired his ability to make a reasoned
choice ... and understand the nature of the consequences of his plea," State
v. Brewer, 170 Ariz. 486,495 (1992), "a competency evaluation and hearing
are not required in all cases in which the defendant pleads guilty." State v.
Rose, 231 Ariz. 500, 507, 26 (2013). In this case, the record supports the
superior court's finding that Davis was competent to waive his rights and
enter the plea.
At the outset of the change of plea hearing, the superior court
explained the nature of the proceedings, and Davis repeatedly assured the
court that he understood the court's comments and instructions. When
asked about his military service, Davis appropriately responded to the
questions posed and gave detailed answers regarding his length of service
and the locations he served. As tire hearing progressed, the superior court
informed Davis of the possible range of punishment he faced if he
proceeded to trial, and Davis again responded that he understood the
court's statements. After that discussion, but before accepting the plea,
Davis requested an opportunity to speak privately with counsel, which the
court granted. When the court then proceeded to the plea colloquy, Davis
correctly provided his biographical information, but informed the court he
had taken several medications to treat various health problems. At that
point, the court asked follow-up questions regarding Davis's

18

JK'PP'Q 3

STATE v. DAVIS
Decision of the Court
understanding and mental state, and Davis stated that he understood the
proceedings and avowed that the medications did not affect his judgment
or reasoning. Given these repeated assurances, the court presented Davis
with the plea, in detail, and Davis told the court that he voluntarily accepted
the plea and waived his rights.
Because Davis "displayed normal communication skills and
thought processes" and demonstrated "an understanding of his rights and
the consequences of waiver," sufficient evidence supports the superior
court's finding that Davis's "ability to make rational choices and to
understand the attendant consequences was not substantially impaired at
the time of the guilty plea." See Brewer, 170 Ariz. at 496. Therefore, the
superior court did not abuse its discretion by finding Davis failed to
establish a colorable claim for relief.

V

Davis likewise failed to set forth a colorable claim that he
could assert an insanity defense. Therefore, even if counsel had been
ineffective for not explaining such a defense, Davis suffered no prejudice.
Under A.R.S. § 13-502, a person may be found guilty except insane if at the
time of the commission of the criminal act the person was afflicted with a
mental disease or defect of such severity that the person did not know the
criminal act was wrong. Here, the evidence showed that Davis threatened
and hit the Victim to keep her from telling her mother of his sexual assaults.
No evidence was presented that Davis did not know what he was doing
was wrong.

fio

We grant review but deny relief.

AMY M. WOOD • Clerk of the Court
FILED: AA

J\pPb
4

/

\

C- -xp

cA'H*

'^ V^ n z?"
SCOTT BALES

...SLt>

JANET JOHNSON
CLERK OF THE COURT

CHIEF JUSTICE

Supreme Court
STATE OF ARIZONA
ARIZONA STATE COURTS BUILDING
1501 WEST WASHINGTON STREET, SUITE 402
PHOENIX, ARIZONA 85007-3231
TELEPHONE: (602) 452-3396

August 29, 2018

RE:

STATE OF ARIZONA v WILLIAM L. DAVIS
Arizona Supreme Court No. CR-18-0136-PR
Court of Appeals, Division One No. 1 CA-CR 17-0382 PRPC
Maricopa County Superior Court No. CR2015-104264-001

GREETINGS:
The following action was taken by the Supreme Court of the State
of Arizona on August 29, 2018, in regard to the above-referenced
cause:
ORDERED: Petition for Review = DENIED.
Vice Chief Justice Brutinel did not participate in the
determination of this matter.
Janet Johnson, Clerk
TO:
Joseph T Maziarz
Lisa Marie Martin
William L Davis, ADOC 305652, Arizona State Prison,
Florence - Eyman Complex-Cook Unit
Amy M Wood
bp

7W c.

■v

Case 2:19-cv-04370-DWL Document 32 Filed 05/18/20 Page 1 of 11

1
2
3
4
5

6

IN THE UNITED STATES DISTRICT COURT

7

FOR THE DISTRICT OF ARIZONA

8
9

William Davis,
Petitioner,

10
11

v.

12

Charles L Ryan, et al,

13

No. CV-19-043 70-PHX-DWL
ORDER

Respondents.

14

15

On June 4, 2019, Petitioner filed a petition for a writ of habeas corpus under 28

16

U.S.C. § 2254 (“the Petition”). (Doc. 1.) While the Petition was pending, Petitioner also

17

filed a motion for leave to amend the Petition (“Motion to Amend”) (Doc. 11) and a motion

18

for leave to expand the record (“Motion to Expand”) (Doc. 15.) On March 20, 2020,

19

Magistrate Judge Morrissey issued a Report and Recommendation (“R&R”) concluding

20

that the Motion to Amend should be granted, the Motion to Expand should be denied, and

21

the Petition (as amended) should be denied and dismissed with prejudice. (Doc. 19.)

22

Afterward, Petitioner filed objections to the R&R (Doc. 29) and Respondents filed a

23

response (Doc. 31). Additionally, Petitioner filed a motion for a certificate of appealability

24

(“COA”). (Doc.27.)

25

For the following reasons, the Court, will overrule Petitioner’s objections to the

26

R&R, grant the Motion to Amend, deny the Motion to Expand, deny the Petition (as

27

amended), deny a COA, and temiinate this action.

28

Case 2:19-CV-04370-DWL Document 32 Filed 05/18/20 Page 2 of 11

1

I.

Background

2

Underlying Facts, In January 2015, Petitioner’s fifteen-year-old step-daughter gave

3

birth to a child. (Doc. 19 at 2.) Hospital workers called the police after the step-daughter

4

disclosed that Petitioner was the child’s father. (Id.) Petitioner separately called 911 in an

5

attempt to “turn himself in” for “statutory rape.” (Id.)

6

During a post-arrest interview, Petitioner “admitted that he engaged in

7

nonconsensual sexual intercourse with [his step-daughter] between five and ten times since

8

December 2013. He advised officers that he used his position as an authority figure in the

9

home to force [his step-daughter] to have sex with him and that [his step-daughter] has a

10

diminished mental ability, and functions at the mental capacity' of an eleven year old.” (Id.)

11

Similarly, during a forensic interview, the step-daughter reported that Petitioner

12

“had been having sex with her since she was approximately thirteen years old,” that

13

Petitioner “would verbally threaten her not to tell her mother that it was happening, or her

14

mother would be taken to jail, and she would be separated from her family,” and that “she

15

tried to stop [Petitioner] on more than one occasion but felt scared ... [because Petitioner]

16

would hit her if she resisted.” (Id.)

17

Trial Court Proceedings. In June 2015, Petitioner’s court-appointed counsel sent

1.8

an email to the prosecutor in an attempt to obtain a favorable plea offer. (Doc. 10-2 at

19

134.) The email stated in part that “[w]e have been waiting on [Petitioner’s] medical

20

records from his years in the [M]arines,” that “I wanted to be able to verify [Petitioner’s]

21

mental status and PTSD issues before formally submitting that information in a deviation

22

[request],” and that “I know [Petitioner] would like to settle this case, but his mental and

23

physical condition are deteriorating.” (Id.) The email further stated that defense counsel

24

hoped to obtain “a deviation in the range of 20-27 [years] or a stipulation] within that

25

range.” (Id.)

26

In October 2015, Petitioner participated in a settlement conference. (Doc. 19 at 10.)

27

In advance of the conference, Petitioner’s counsel submitted a mitigation memo on

28

Petitioner’s behalf. (Doc. 10-2 at 136-37.) The memo stated that Petitioner had earned

-2

Case 2:19-cv-04370-DWL Document 32 Filed 05/18/20 Page 3 of 11

1

“multiple good conduct awards and combat service ribbons” while in the Marines but was

2

not allowed to re-enlist in 2005 “due to weakening heart and beginning signs of PTSD.”

3

(Id. at 136.) The memo further stated that Petitioner’s “in-home VA caregiver assessments

4

and physicals diagnose him with poor cognitive ability, poor memory and confusion,

5

almost deaf in one ear (mortar firings), isolated and withdrawn.” (Id. at 137.) Finally, the

6

memo emph asized that Petitioner “appreciates the wrongfulness of his actions and damage

7

he has wrought to his family” and “asks for leniency from the state in the form of a

8

deviation given the provided mitigation and importantly, from his genuine shame and

9

desire for accountability for his actions.” (Id.)

10

During the settlement conference, Petitioner “listened to the court, and counsel, told

11

the court he was ‘still thinking about the time’ he would have to serve under the [proposed

12

plea] agreement, and asked the court for time to talk with his attorney about the plea offer.”

13

(Doc. 19 at 10, citations omitted.)

14

Soon after the settlement conference, Petitioner agreed to accept the plea offer.

15

During the change-of-plea hearing, which occurred before Judge Coury, Petitioner

16

“repeatedly assured the court that he understood the court’s comments and instructions.”

17

(Id. at 8.) Petitioner also “responded to the questions posed,” “gave detailed answers,” and

18

“correctly provided his biographical information, but informed the court he had taken

19

several medications to treat various health problems.” (Id. See also id. at 10 n.l.) “At that

20

point, the court asked follow-up questions regarding [Petitioner’s] understanding and

21

mental state, and [Petitioner] stated that he understood the proceedings and avowed that

22

the medications did not affect his judgment or reasoning.” (Id. at 8.) Additionally,

23

Petitioner “told the court that he voluntarily accepted the plea and waived his rights.” (Id.)

24

The sentencing hearing'took place in November 2015 before Judge Fenzel, (Id. at

25
26
27

28

11, 13.) During the hearing, Petitioner read the following statement:
People make mistakes. Seldomly, they own up to them and hold themselves
accountable. I initiated atonement for myself starting with an apology to the
victim. I encouraged her to report. I yielded superior authority by reporting
my crime to the police. I confessed my crime on record to the police, with
the hopes to alleviate any burden of guilt and shame. I put it all on me. I’ve

APPh -3

Case 2:19-cv-04370-DWL Document 32 Filed 05/18/20 Page 4 of 11

1

never pointed the blame at anyone or ever encouraged anyone else for my
actions. My display of courage, integrity and accountability7 reflects my true
medal that will forever be questioned and overshadowed by my criminal
actions. I’m usually not at a loss for words or weak, but actually hearing in
hi-fi the suffering, it’s real and incredibly close to me. So it’s the worst thing.
And 27 years flat is appropriate.

3
4
5
6

(Id. at 11.) The trial court accepted the plea agreement and sentenced Petitioner to the
stipulated term of 27 years’ imprisonment.

7
8
9

PCR Proceedings. In December 2015, Petitioner filed a notice of post-conviction
relief (“PCR”). (Id. at 2.) Petitioner’s court-appointed counsel subsequently filed a notice
advising that counsel could not identify any colorable issues. (Id. at 2-3.)

10
11
12
13

In February 2017, Petitioner filed a pro se PCR petition. (Id. at 3.) It raised two
claims of ineffective assistance of counsel (“IAC”): (1) Petitioner’s trial counsel failed to
seek a competency determination, and (2) Petitioner’s trial counsel failed to pursue an
insanity defense. (Id. )

14
15
16
17
18
19
20

In April 2017, the trial court denied the petition. (Id. at 3.) It ruled that Petitioner
was “clearly competent” when he pleaded guilty and emphasized that having PTSD (or
another mental illness) “does not mean that a Defendant is incompetent to plead guilty.
The issue regarding competency is whether or not the Defendant was able to understand
the nature of the charges he faced and to assist his [counsel] in his defense.”

Additionally, the court noted that “a Defendant waives non-jurisdictional defenses when a
plea is entered” and “[a]n insanity defense .. . [is] non-jurisdictional.” (Doc. 10-3 at 26.)

21
22
23
24
25
26
27
28

(Id.)

In May 2017, Petitioner filed a motion for reconsideration. (Doc. 10-3 at 29-32.)
In it. Petitioner argued for the first time that the judge overseeing his change-of-plea
hearing had coerced him into pleading guilty by engaging in questioning that was “leading,
suggestive, and more of a directive compared to an interrogative” and by focusing on
Petitioner’s Marine service. (Id. at 31.) This motion was denied without explanation. (Id.
at 35.)
Appeal of PCR Proceedings. In June 2017, Petitioner filed a petition for review
with the Arizona Court of Appeals. (Doc. 10-3 at 37-46.)
-4-

Case 2:19-cv-04370-DWL Document 32 Filed 05/18/20 Page 5 of 11

1

The Court of Appeals accepted review but denied relief. (Doc. 10-3 at 71-74.) As

2

for Petitioner’s claim that he was coerced into pleading guilty by the judge overseeing his

3

change-of-plea hearing, the court held this claim was forfeited because Petitioner hadn't

4

properly presented it in his PCR petition. (Doc. 10-3 at 73 Tf 5.) As for Petitioner’s

5

competency-based IAC claim, the court held that “the record supports the superior court’s

6

finding that [Petitioner] was competent to waive his rights and enter the plea” in light of

7

fact that Petitioner “appropriately responded to the questions posed” during the change-of-

8

plea hearing and also provided “repeated assurances” of his understanding and mental state.

9

(Doc. 19 at 8.) Finally, as for Petitioner’s insanity-based IAC claim, the court held that

10

Petitioner could not establish prejudice because “the evidence showed that [Petitioner]

11

threatened and hit the Victim to keep her from telling her mother of the sexual assaults.

12

No evidence was presented that [Petitioner] did not know what he was doing was wrong.”

13

(Id. at 11-12.)

14

The Petition. In June 2019, Petitioner filed the Petition. (Doc. 1.) It alleges IAC

15

by trial counsel in failing to seek a competency evaluation and in failing to pursue an

16

insanity defense. (Doc. 19 at 3.)

17

The Motion To Amend. In September 2019, Petitioner filed the Motion to Amend.

18

(Doc. 11.) It seeks permission to add a new claim—that the trial court “may not [have]

19

had jurisdiction to convict Petitioner” because the judge overseeing the change-df-plea

20

hearing, Judge Corny, “was not sworn into his oath of office” at the time of the hearing.

21

(Id. at 1.) In support of the motion, Petitioner filed a copy of an oath-of-office form

22

executed by Judge Coury, which is on file with the Arizona Secretary' of State. (Doc. 11

23

at 5-6.) The form reflects that it was signed by Judge Coury in November 2016 and filed

24

with the Secretary of State in December 2016. (Id.)

25

The Motion To Expand. Later in September 2019, Petitioner filed the Motion to

26

Expand. (Doc. 15.) It seeks to add to the record certain police reports from the Avondale

27

Police Department. (Id. at 1.) According to Petitioner, these reports will contradict the

28

allegation that he “admitted to using his power of authority' to abuse the victim” because
5

Case 2:19-cv-04370-DWL Document 32 Filed 05/18/20 Page 6 of 11

1

they will reveal that he merely “said, ‘With me having power over her, it can’t be

2

consensual.’” (Id.) Petitioner further argues that the reports will be useful in impeaching

3

the victim. (Id.)

4

The R&R. The R&R was issued in March 2020. (Doc. 19.) As for Petitioner’s

5

competency-based IAC claim, the R&R concludes the claim should be denied because

6

“Petitioner’s statements during his settlement conference, change of plea, and sentencing

7

do not demonstrate he was incompetent to plead guilty'-,” and thus “Petitioner fails to

8

demonstrate that the decision of the Arizona Court of Appeals was clearly unreasonable.”

9

(Id. at 11-12.)

10

As for Petitioner’s insanity-based IAC claim, the R&R rejects, as a threshold matter,

11

Respondents’ contention that the claim isn’t cognizable on habeas review. (Id. at 12.)

12

Nevertheless, on the merits, the R&R concludes that Petitioner “fails to establish that the

13

Arizona Court of Appeals was unreasonable when it found that Petitioner did not prove

14

prejudice” in light of (a) Petitioner’s numerous statements (to the police during the 911

15

call, during the post-arrest interview, during the change-of-plea hearing, and during

16

sentencing) expressing contrition and consciousness of guilt, and (b) the victim’s statement

17

that Petitioner made threats in an effort to conceal his misconduct. (Id. at 12-13.)

18

As for the Motion to Amend, the R&R recommends that it be granted, but that relief

19

based on the new claim be denied, because (1) even if Petitioner had demonstrated a

20

problem with Judge Coury’s oath, this would present a pure state-law question not

21

cognizable on habeas review, (2) given Petitioner’s failure to challenge the qualifications

22

or oath of the judge who sentenced him (Judge Fenzel), “Petitioner also fails to show the

23

alleged failure to follow state procedures resulted in the deprivation of a substantive right,”

24

and (3) “this claim is procedurally defaulted without excuse because Petitioner did not raise

25

this claim in state proceedings” and the oath-of-office card was available months before

26

Petitioner filed his PCRpetition. (Id. at 13-15.)

27

Finally, as for the Motion to Expand, the R&R recommends that it be denied because

28

(1) although Petitioner views as exculpatory his admission that he merely possessed

AiPPB

-6- '

Case 2:19-cv-04370-DWL Document 32 Filed 05/18/20 Page 7 of 11

1

“power over” the victim, this admission actually “corroborate[sj that he knew his conduct
was improper,” and (2) similarly, even if the police reports had some impeachment value

3

as to the victim, there remains “ample evidence of consciousness of guilt from Petitioner’s

4

conduct.” (Id. at 15.)

5

II.

Legal Standard

6

A party may file written objections to an R&R within fourteen days of being served

7

with a copy of it. Rules Governing Section 2254 Cases 8(b) (“Section 2254 Rules”). Those

8

objections must be “specific,” See Fed. R. Civ. P. 72(b)(2) (“Within 14 days after being

9

served with a copy of the recommended disposition, a party may serve and file specific

10

written objections to the proposed findings and recommendations.”) (emphasis added).

11

District courts are not required to review any portion of an R&R to which no specific

12

objection has been made. See, e.g., Thomas v. Am, 474 U.S. 140, 149-50 (1985) (“It does

13

not appear that Congress intended to require district court review of a magistrate’s factual

14

or legal conclusions, under a de novo or any other standard, when neither party objects to

15

those findings.”); United States v. Reyna-Tapia, 328 F.3d 1114, 1121 (9th Cir. 2003)

16

(“fTjhe district judge must review the magistrate judge’s findings and recommendations

17

de novo if objection is made, but not otherwise.”). Thus, district judges need not review

18

an objection to an R&R that is general and non-specific. See, e.g., Warling v. Ryan, 2013

19

WL 5276367, *2 (D. Ariz, 2013) (“Because de novo review of an entire R&R would

20

defeat the efficiencies intended by Congress, a general objection ‘has the same effect as

21

would a failure to object.’”) (citations omitted); Haley v. Stewart, 2006 WL 1980649, *2

22

(D. Ariz. 2006) (“[Gjeneral objections to an R & R are tantamount to no objection at all.”). i

23
24

25
26
!

27

28

See generally S. Gensler, 2 Federal Rules of Civil Procedure, Rules and
Commentary, Rule 72, at 422 (2018) (“A party who wishes to object to a magistrate judge’s
ruling must make specific and direct objections. General objections that do not direct the
district court to the issues in controversy are not sufficient. .. . [T]he objecting party' must
specifically identify each issue for which he seeks district court review .'. . .”).

J\pP^ - 7

Case 2:19-cv-0437G-DWL Document 32 Filed 05/18/20 Page 8 of 11

1

III.

Analysis

2

Petitioner has filed written objections to the R&R. (Doc. 29.) Those objections can

3

be grouped into four categories. First, as for the competency-based LAC claim, Petitioner

4

argues that (1) the R&R’s conclusion that his statements during the settlement conference,

5

change-of-plea hearing, and sentencing hearing were suggestive of competence is based on

6

an “abstract review of the transcripts,” (2) the R&R “overiook[s] the fact that. .. the [trial

7

judge] hounded him about his hesitancy about signing the plea” and engaged in other fonns

8

of “coercive behavior,” (3) the June 2015 email from his counsel to the prosecutor, as well

9

as the October 2015 mitigation memo, demonstrate that his counsel had concerns about his

10

mental condition, and such concerns should have prompted his counsel to seek a

11

competency evaluation instead of “mov[ing] forward with plea negotiations,” (4) the judge

12

overseeing the settlement conference stated that the mitigation memo was “extremely

13

persuasive,” and this statement functions as a concession that there w-ere reasonable

14

grounds to believe a competency hearing was necessary, and (5) Petitioner’s PTSD- and

15

hypertension-related medical records further show why the court should have held a

16

competency hearing. (Id. at 1-5.) Petitioner concludes: “Even if the Court finds . . . that

17

there were no issues regarding Petitioner’s competency, then the fact remains the guilty

18

plea was the result of judicial participation in the plea negotiations in order to contrive a

19

conviction . .. .” (Id. at 5.)

20

These objections will be overruled. Before addressing each objection individually,

21

it is necessary to emphasize an overarching point. The transcripts from Petitioner’s

22

settlement conference, change-of-plea hearing, and sentencing hearing speak for

23

themselves.

24

assurances concerning his competency, and spoke in depth about his contrition. On this

25

record, Petitioner has not come close to showing that the Arizona Court of Appeals’

26

rejection of his competency-based LAC claim was a violation of clearly established federal

27

law or an unreasonable application of clearly established federal law.

28

Petitioner displayed lucidity, answered questions coherently, provided

With this backdrop in mind, Petitioner’s individual objections are easily addressed.

-8 -

Case 2:19-cv-04370-DWL Document 32 Filed 05/18/20 Page 9 of 11

1

First. Petitioner has not demonstrated that the R&R contains factual misstatements that are

2

the product of an “abstract review” of the record. To the contrary, the R&R accurately

3

summarizes the record. Second, several of Petitioner’s arguments are directed not toward

4

the conduct of Petitioner’s trial counsel, hut toward the conduct of the judge who oversaw

5

the change-of-plea hearing. Those arguments fail because they are distinct from the

6

competency-based IAC claim raised in the Petition (and, as the Arizona Court of Appeals

7

correctly found, Petitioner forfeited any separate claim of judicial coercion by failing to

8

raise it in his PCR petition). Third, although it is true that the materials written by

9

Petitioner’s counsel show that counsel was aware of Petitioner’s PTSD and other mental

10

issues, and the medical records proffered *by Petitioner further corroborate the presence of

11

those issues, the record is replete with evidence suggesting that Petitioner was competent

12

to waive his rights and enter a guilty plea despite those mental issues. At a minimum,

13

Petitioner has not shown that the Arizona Court of Appeals’ conclusion to that effect was

14

clearly unreasonable.

15

settlement conference somehow conceded that a competency hearing was necessary, by

16

remarking that the mitigation memo was “extremely persuasive,” lacks merit.

1 "7

i /

mitigation memo didn’t raise any concerns regarding Petitioner’s competency to enter a

18

guilty plea and indeed sought the judge’s assistance in persuading Petitioner that the

19

existing plea offer was a favorable one.

Finally, Petitioner’s contention that the judge overseeing the

The

20

Second, as for the insanity-based IAC claim, Petitioner “respectfully disagrees”

21

with the R&R’s determination that an insanity defense was unlikely to succeed on the

22

merits, arguing that (1) the prescription medications he was taking for his PTSD have

23

“serious side-effects that cause[] changes in personality, confusion, and hallucinations” and

' 24

have even caused some users to “hav[e] sex and later hav[e] no memory of the activity,”

25

(2) his VA caregiver reported that he was experiencing “lucid dreams,” (3) “[i]t is clear

26

that Petitioner did not take any precautions to disguise his actions,” and (4) the R&R’s

27

“consciousness of guilt’' analysis is marred by a failure to establish that such consciousness

28

was “relative to time and space of the offense.” (Doc. 29 at 5-7.)

-9-

Case 2:19-cv-04370-DWL Document 32 Filed 05/18/20 Page 10 of 11

1

These objections will be overruled. The crime in this case wasn’t a one-time

2

offense—-it involved a sustained pattern of sexual abuse of a mentally impaired child, as

3

well as threats of physical force and family disintegration designed to coerce the victim

4

into staying silent. The notion that such conduct could be a side effect of prescription drugs

5

or bad dreams is fanciful. Additionally, Petitioner’s contention that he “did not take any

6

precautions to disguise his actions” is belied by the record—as noted, he engaged in various

7

L forms of coercion in an effort to evade detection—and the fact he took such precautions

8

while his crimes were ongoing undermines any suggestion that he only began displaying

9

consciousness of guilt after the crimes stopped. The Arizona Court of Appeals did not

10

violate clearly established federal law by concluding, on this record, that Petitioner would

11

be unable to establish prejudice on any LAC claim premised on counsel’s failure to pursue

12

an insanity defense.

13

Third, as for Judge Corny’s alleged failure to take the required judicial oath,

14

Petitioner argues (1) this claim is cognizable on habeas review because Article IV of the

15

United States Constitution requires that all judicial officers of the United States be bound

16

by oath, (2) Judge Coury engaged in improper coercion during the change-of-plea hearing,

17

and (3) although the Arizona Court of Appeals determined that Petitioner’s judicial

18

coercion claim was forfeited, this Court may review it under Anders v. California, 386 U.S,

19

738 (1967). (Doc. 29 at 7-10.)

20

These objections lack merit. The R&R identified three independent reasons why

21

Petitioner’s no-judicial-oath claim should be rejected: (1) it is a pure state-law claim, and

22

thus not cognizable on habeas review; (2) Petitioner cannot show his substantia! rights were

23

violated in light of the fact that a different judge sentenced him and entered judgment; and

24

(3) this claim is procedurailv defaulted without excuse because Petitioner failed to raise it

25

during the PCR proceedings. (Doc. 19 at 13-15.) Although Petitioner’s objections address

26

the R&R’s first reason (and can be liberally construed as addressing the R&R’s second

27

reason), Petitioner has not addressed the R&R’s third reason. To be clear, the judicial

28

coercion claim that Petitioner belatedly sought to raise during the PCR proceedings (which

- 10-

Case 2:19-cv-04370-DWL Document 32 Filed 05/18/20 Page 11 of 11

1

the Arizona Court of Appeals rejected as untimely) is different from the no-judicial-oath

2

claim that Petitioner now wishes to pursue. That claim is based on information that was

3

available to Petitioner at the time he filed his PCR petition and Anders does not provide

4

this Court with a basis for overlooking AEDPA’s exhaustion requirements.

5

Fourth. Petitioner objects to the R&R’s recommendation that his Motion to Expand

6

be denied. (Doc. 29 at 10-11.) Here, Petitioner simply repeats the arguments he raised in

7

the motion, without acknowledging (let alone challenging the validity' of) the R&R’s

8

rationale for rejecting those arguments. (Id.) Accordingly, further review is not required

9

under Rule 72. Additionally, the Court agrees with the R&R’s analysis concerning the

10

Motion to Expand and adopts it.

II

Accordingly, IT IS ORDERED that:

12

(1)

Petitioner’s objections to the R&R (Doc. 29) are overruled.

13

(2)

The R&R (Doc. 19) is accepted.

14

(3)

The Motion To Amend (Doc. 11) is granted. ■

15

(4)

The Motion To Expand (Doc. 15) is denied.

16

(5)

The Petition (Doc. 1), as amended (Doc. 11), is denied and dismissed with

17

18

prejudice.

(6)

A Certificate of Appealability and leave to proceed in forma pauperis on

19

appeal are denied because the dismissal of the Petition is justified by a plain procedural

20

bar and jurists of reason would not find the procedural ruling debatable, and because

21

Petitioner has not made a substantial showing of the denial of a constitutional right.

22

The motion for a COA (Doc. 27) is denied.

23

(7)
(8)

24

Dated this 18th day of May, 2020.

The Clerk shall enter judgment accordingly and terminate this action.

25

n

26
27

Dominic U. Lanza
United States District Judge

28

APP-f*

- ii -

A

L

^rxrtf

Case 2:19-cv-04370-DWL Document 38 Filed 10/05/20 Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
OCT 2 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

WILLIAM DAVIS,

No.

Petitioner-Appellant,
v.

DAVID SHINN, Director; MARK
BRNOVICH, Attorney General,

20-16105

D.C. No. 2:19-cv-04370-DWL
District of Arizona,
Phoenix
ORDER

Respondents-Appellees.
Before:

HAWKINS and FRIEDLAND, Circuit Judges.

The request for a certificate of appealability (Docket Entry No. 2) is denied
because appellant has not shown that “jurists of reason would find it debatable
whether the petition states a valid claim of the denial of a constitutional right and
that jurists of reason would find it debatable whether the district court was correct
in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000); see also 28
U.S.C. § 2253(c)(2); Gonzalez v. Thaler, 565 U.S. 134, 140-41 (2012); Miller-El v.
Cockrell, 537 U.S. 322, 327 (2003).
Any pending motions are denied as moot.
DENIED.

AW

V

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
NOV 3 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

WILLIAM DAVIS,
Petitioner-Appellant,
v.
DAVID SHINN, Director; MARK
BRNOVICH, Attorney General,

No.

20-16105

D.C. No. 2:19-cv-04370-DWL
District of Arizona,
Phoenix
ORDER

Respondents-Appellees.
Before:

TALLMAN and LEE, Circuit Judges.

Appellant’s motion for reconsideration (Docket Entry No. 6) is denied. See
9th Cir. R. 27-10.
No further filings will be entertained in this closed case.

